June 4, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Medicare Continues To Pay Twice for Nonphysician Outpatient Services
               Provided Shortly Before or During an Inpatient Stay (A-01-10-00508)


The attached final report provides the results of our review of Medicare payments for
nonphysician outpatient services provided under the inpatient prospective payment system.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-01-10-00508 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICARE CONTINUES TO PAY
  TWICE FOR NONPHYSICIAN
   OUTPATIENT SERVICES
PROVIDED SHORTLY BEFORE OR
 DURING AN INPATIENT STAY




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-01-10-00508
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act in 1965, provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program. Under the inpatient prospective payment system (IPPS), hospitals are paid a
predetermined amount per discharge for inpatient hospital services furnished to Medicare
beneficiaries. The prospective payment amount represents the total Medicare payment for the
inpatient operating costs associated with a beneficiary’s hospital stay. Accordingly, hospitals
generally receive no additional payments for nonphysician outpatient services furnished shortly
before and during inpatient stays.

CMS employs Medicare contractors to process and pay hospital inpatient and outpatient claims.
Medicare contractors use the Fiscal Intermediary Standard System (FISS) to process inpatient
and outpatient claims submitted by the hospitals in their designated jurisdictions. After being
processed through the FISS, and prior to payment, all Medicare contractor claims are sent to
CMS’s Common Working File (CWF) system for verification, validation, and payment
authorization. Both the FISS and CWF systems contain edits to prevent and detect
overpayments for nonphysician outpatient services furnished shortly before and during inpatient
stays. Once the CWF has processed a claim, it electronically transmits a trailer record to the
contractor. The trailer record includes information regarding potential errors on the claim.

Our nationwide audit covered 148,302 Medicare Part B nonphysician outpatient services
provided within 3 days prior to the date of admission for, on the date of admission for, or during
(excluding date of discharge) IPPS stays and valued at $12,015,014 for calendar years (CY) 2008
and 2009.

OBJECTIVE

Our objective was to determine whether Medicare payments were correct for nonphysician
outpatient services provided within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays.

SUMMARY OF FINDINGS

Medicare payments were not always correct for nonphysician outpatient services provided within
3 days prior to the date of admission for, on the date of admission for, or during (excluding date
of discharge) IPPS stays. Medicare payments were correct for 66 of the 127 nonphysician
outpatient services that we sampled. However, for 61 services we sampled, Medicare paid
providers twice—as part of the IPPS and again under Part B—which resulted in total
overpayments of $340,073.




                                                 i
Based on our sample results, we estimated that Medicare contractors made approximately
$6.4 million in overpayments to hospital outpatient providers during CYs 2008 and 2009 for
services provided to beneficiaries within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays. These overpayments occurred
because provider controls failed to prevent or detect incorrect billing, providers were unaware
that beneficiaries were inpatients at other facilities, and providers were unaware of or did not
understand Medicare requirements. In addition, (1) Medicare contractors were not aware of
incoming CWF alerts because CMS did not notify them it had changed the location of this
information on the trailer record, (2) existing CWF edits did not prevent or detect certain
incorrect payments, and (3) Medicare contractors incorrectly overrode FISS edits or took no
action to recover or offset overpayments when they received CWF alerts.

RECOMMENDATIONS

We recommend that CMS:

    •   instruct its Medicare contractors to:

                   o recover the $340,073 in identified overpayments, to the extent allowed
                     under the law, for the 61 incorrectly billed services;

                   o work with the Office of Inspector General to resolve the remaining
                     148,175 services with potential overpayments estimated at approximately
                     $6.1 million and recover overpayments to the extent allowed under the
                     law;

                   o take action to reject claims or recoup overpayments when identified by
                     edits; and

                   o remind hospitals of the importance of adequate controls to prevent
                     incorrect billing for services provided to beneficiaries within 3 days prior
                     to the date of admission for, on the date of admission for, or during
                     (excluding date of discharge) IPPS stays;

   •    communicate with Medicare contractors about changes to the CWF;

   •    modify existing edits to prevent payments for ambulance services provided during
        inpatient stays; and

   •    modify existing edits to prevent payments that are already included in the basic
        prospective payment rate for nonphysician outpatient services furnished to beneficiaries
        after the beneficiaries have exhausted their Part A benefits.




                                                ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred in part with our first recommendation.
Specifically, it stated that it would attempt to collect $284,538 in overpayments from 42 of the
61 billed services that were not outside of the 4-year reopening period for collections and/or
below the estimated cost of collection. CMS concurred with the remainder of the first
recommendation, the second recommendation, and the fourth recommendation and described its
efforts to implement them. CMS stated that it did not concur with our third recommendation as
it was stated in the report. CMS verified that the existing alert was working correctly, but
acknowledged that the alert listed an incorrect bypass scenario, which deterred the contractor
from acting on the alert. CMS stated that it will update the CWF documentation and instructions
in the alert to correct the bypass scenario. CMS expects to complete this during fiscal year 2012.
CMS’s comments are included in their entirety as Appendix D.

We furnished CMS with the information it requested to initiate recovery action.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION................................................................................................................1

      BACKGROUND ............................................................................................................1
          Inpatient Prospective Payment System ..............................................................1
          Medicare Contractors and Medicare Claims Processing Systems .....................1
          System Edits To Detect and Prevent Overpayments ..........................................2
          Prior Office of Inspector General Reports..........................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
           Objective.............................................................................................................2
           Scope ..................................................................................................................2
           Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

      PROGRAM REQUIREMENTS ....................................................................................4

      INCORRECT BILLING ................................................................................................5

      CAUSES OF OVERPAYMENTS .................................................................................5

      RECOMMENDATIONS ...............................................................................................6

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
       AND OFFICE OF INSPECTOR GENERAL RESPONSE ........................................7

APPENDIXES

      A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

      B: SAMPLE DESIGN AND METHODOLOGY

      C: SAMPLE RESULTS AND ESTIMATES

      D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iv
                                                   INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Inpatient Prospective Payment System

Under the inpatient prospective payment system (IPPS), hospitals are paid a predetermined
amount per discharge for inpatient hospital services furnished to Medicare beneficiaries, as long
as the beneficiary has at least one benefit day at the time of admission. 1 The prospective
payment amount represents the total Medicare payment for the inpatient operating costs
associated with a beneficiary’s hospital stay. 2 Inpatient operating costs include routine services,
ancillary services (e.g., radiology and laboratory services), special care unit costs, malpractice
insurance costs, and preadmission services. Accordingly, hospitals generally receive no
additional payments for nonphysician outpatient services furnished shortly before and during
inpatient stays.

Medicare Contractors and Medicare Claims Processing Systems

CMS employs Medicare contractors to process and pay Medicare inpatient and outpatient claims
from hospitals. 3 Each Medicare contractor is responsible for processing claims submitted by
hospitals within 1 of 15 designated regions, or jurisdictions, of the United States and its
territories. 4



1
  A “benefit period” is a period of time for measuring the use of hospital insurance benefits. It is a period of
consecutive days during which medical benefits for covered services are available to a beneficiary. A benefit period
begins on the day of hospital admission and ends when the beneficiary has not had any inpatient care for 60 days in
a row. A beneficiary may be eligible for as many as 150 days of hospital care in a benefit period—90 days of
hospital care and an additional 60 lifetime reserve days.
2
  In addition to payments based on the prospective payment rates for inpatient operating costs, hospitals can also
receive payments for the costs related to outlier cases, graduate medical education, certain items excluded from the
prospective payment rates, bad debts, serving a significant number of end-stage renal disease beneficiaries, serving a
disproportionate share of low-income patients, and blood clotting factor furnished to hemophilia patients.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. In this report, the term “Medicare contractor” means either the
fiscal intermediary or the MAC.
4
 In July 2010, CMS announced that it would consolidate the 15 MAC jurisdictions into 10 MAC jurisdictions in a
phased process that will take several years to complete.

                                                          1
Medicare contractors use the Fiscal Intermediary Standard System (FISS) to process inpatient
and outpatient claims submitted by hospitals in their designated jurisdictions. After being
processed through the FISS, and prior to payment, all Medicare contractor claims are sent to
CMS’s Common Working File (CWF) system for verification, validation, and payment
authorization. Once the CWF has processed a claim, it electronically transmits a trailer record to
the contractor. The trailer record includes information regarding potential errors on the claim.

System Edits To Detect and Prevent Overpayments

Both the FISS and CWF systems contain edits to prevent and detect overpayments for
nonphysician outpatient services furnished shortly before and during inpatient stays. If an
inpatient claim is processed and paid before a related outpatient claim is processed, prepayment
edits are designed to deny payment for the nonphysician outpatient services included in the IPPS
payment.

If an outpatient claim for nonphysician services provided within 3 days prior to the date of
admission for or on the date of admission for an IPPS stay is processed and paid before a related
inpatient claim, prepayment edits are designed to deny payment for the inpatient claim. If an
outpatient claim for nonphysician services provided during an IPPS stay is processed and paid
before a corresponding inpatient claim, postpayment edits are designed to generate an “alert” that
identifies overpayments for the nonphysician outpatient services included in the IPPS payment.
The Medicare contractor responsible for the outpatient claim is also responsible for recovering
the overpayment.

Prior Office of Inspector General Reports

Prior Office of Inspector General (OIG) reviews identified significant overpayments to IPPS
hospitals for nonphysician services furnished shortly before, or during, inpatient stays. In those
reviews, we had recommended that CMS recover overpayments, ensure that edits to prevent such
overpayments were in place and working properly, and educate providers on the proper billing of
nonphysician outpatient services. CMS generally concurred with our recommendations and
implemented them (Appendix A).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments were correct for nonphysician
outpatient services provided within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays.

Scope

Our nationwide audit covered 148,302 Medicare Part B nonphysician outpatient services
provided within 3 days prior to the date of admission for, on the date of admission for, or during


                                                 2
(excluding date of discharge) IPPS stays and valued at $12,015,014 for calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal control
structure of the providers or Medicare contractors that processed the claims. Therefore, we
limited our review to: 1) obtaining an understanding of providers’ procedures for submitting
claims for nonphysician outpatient services provided within 3 days prior to the date of admission
for, on the date of admission for, or during (excluding date of discharge) IPPS stays, and
2) Medicare contractors’ procedures for processing and paying claims for those nonphysician
outpatient services.

Our fieldwork consisted of contacting the outpatient providers that billed for the items we
sampled and the inpatient hospitals that billed for the associated IPPS stays. We also contacted
Medicare contractors and CMS officials. We conducted our fieldwork from November 2010
through June 2011.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify nonphysician outpatient services
       provided within 3 days prior to the date of admission for, on the date of admission for, or
       during (excluding date of discharge) IPPS stays for CYs 2008 and 2009;

   •   identified 3 strata from which we selected our sample items (stratum 1 consisted of
       144,128 line items with paid amounts less than $496, stratum 2 consisted of 4,147 line
       items with paid amounts of at least $496 and less than $20,000, and stratum 3 consisted
       of 27 line items with paid amounts of $20,000 or greater);

   •   selected a stratified random sample of 127 line items, 50 each from strata 1 and 2, and all
       27 line items from stratum 3 (Appendix B), and, for the sampled line items, we:

       o reviewed available claims histories from the CWF and FISS for each nonphysician
         outpatient service and corresponding inpatient stay we sampled to determine whether
         the claims had been canceled and superseded by revised claims or whether payments
         remained outstanding at the time of our fieldwork and

       o contacted 165 providers that billed for the nonphysician outpatient services and/or the
         corresponding inpatient stays we sampled to validate payments, determine the
         underlying causes of improper billing, and verify the admission and discharge dates;

   •   contacted CMS and four contractors to obtain an understanding of the billing
       requirements and edits in place in the CWF and FISS;

                                                3
    •   used our sample results to estimate the overpayments that Medicare contractors made for
        nonphysician outpatient services provided in CYs 2008 and 2009 (Appendix C); and

    •   discussed the results of our review with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Medicare payments were not always correct for nonphysician outpatient services provided within
3 days prior to the date of admission for, on the date of admission for, or during (excluding date
of discharge) IPPS stays. Medicare payments were correct for 66 of the 127 nonphysician
outpatient services that we sampled. However, for 61 services we sampled, Medicare paid
providers twice—as part of the IPPS and again under Part B—which resulted in total
overpayments of $340,073.

Based on our sample results, we estimated that Medicare contractors made approximately
$6.4 million in overpayments to hospital outpatient providers during CYs 2008 and 2009 for
services provided to beneficiaries within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays. These overpayments occurred
because provider controls failed to prevent or detect incorrect billing, providers were unaware
that beneficiaries were inpatients at other facilities, and providers were unaware of or did not
understand Medicare requirements. In addition, (1) Medicare contractors were not aware of
incoming CWF alerts because CMS did not notify them it had changed the location of this
information on the trailer record, (2) existing CWF edits did not prevent or detect certain
incorrect payments, and (3) Medicare contractors incorrectly overrode FISS edits or took no
action to recover or offset overpayments when they received CWF alerts.

PROGRAM REQUIREMENTS

Pursuant to section 1886(a)(4) of the Act and the Medicare Claims Processing Manual, Pub. No.
100-04 (Processing Manual), ch. 3, § 40.3.B, diagnostic services provided to a beneficiary by the
admitting hospital 5 within 3 days prior to and including the date of the beneficiary’s admission
are inpatient services that are included in the inpatient payment. Diagnostic services are
identified on the claim by specific revenue center and/or Healthcare Common Procedure Coding
System codes. This provision does not apply to ambulance services and maintenance renal
dialysis.



5
 This includes any entity wholly owned or operated by the admitting hospital or another entity under arrangements
with the admitting hospital.

                                                        4
Pursuant to section 1886(a)(4) of the Act and ch. 3, § 40.3.C of the Processing Manual,
nondiagnostic outpatient services that are related to a patient’s hospital admission and provided
by the hospital to the patient during the 3 days immediately preceding and including the date of
the beneficiary’s inpatient admission are inpatient services that are included in the inpatient
payment. However, these preadmission nondiagnostic services are considered related to the
inpatient admission only when there is an exact match between the principal diagnosis codes for
the preadmission services and the inpatient stay. 6 This provision does not apply to ambulance
services and maintenance renal dialysis.

Pursuant to ch. 3, § 10.4 of the Processing Manual and the Medicare Benefit Policy Manual
Pub. No. 100-02 (Benefit Manual), ch. 1, § 50, ch. 3, § 20.1, and ch. 6, § 10, outpatient services
where the date of service is totally within the inpatient dates of service at the same or another
provider, excluding the date of discharge, are included in the IPPS payment. This provision
applies to ambulance services used for the transportation of a hospital inpatient to another facility
for diagnostic tests or special treatment.

Pursuant to 42 CFR § 412.2(b)(2) and the Processing Manual, ch. 3, §40, as long as a beneficiary
has at least one benefit day at admission, a hospital will receive the basic prospective payment
amount. Pursuant to the Benefit Manual, ch. 6, § 10, payment may be made under Part B for
nonphysician outpatient services when no Part A prospective payment is made at all for the
hospital stay because of patient exhaustion of benefit days before admission.

INCORRECT BILLING

Hospitals incorrectly billed Medicare Part B for 61 of the 127 line items that we reviewed. The
incorrectly billed line items were for services provided within 3 days prior to the date of
admission for or during (excluding date of discharge) IPPS stays. The incorrect billing resulted
in overpayments totaling $340,073. The majority of the overpayments, 58 sample items totaling
$339,955, were for services provided during IPPS stays. Based on the results of our sample, we
estimated that Medicare contractors nationwide made approximately $6.4 million in
overpayments for outpatient nonphysician services. These services included, but were not
limited to, laboratory, radiology, and surgical procedures.

CAUSES OF OVERPAYMENTS

Providers attributed incorrect billing to the following factors:



6
  Effective June 25, 2010 (after our review period), preadmission nondiagnostic services include all outpatient
services that are not diagnostic services, ambulance services, or maintenance renal dialysis services that the
admitting hospital provides on the date of, or during the 3 days immediately preceding, the admission. Hospitals
must bill these services with the inpatient stay, unless they attest that the services are clinically distinct or
independent from the reason for the beneficiary’s admission. (Preservation of Access to Care for Medicare
Beneficiaries and Pension Relief Act of 2010, P.L. No. 111-192 § 102; CMS, Clarification of Payment Window for
Outpatient Services Treated as Inpatient Services, Pub. 100-20 One-Time Notification, Transmittal 796 (Change
Request 7142, October 29, 2010)).

                                                        5
   •    For 32 of the 61 overpayments totaling $151,734, incorrect billing was the result of
        clerical errors during the patient admitting or billing process. For example, one provider
        stated that it had a manual system that failed to detect incorrect billing.

   •    For 29 of the 61 overpayments totaling $188,339, providers were not aware beneficiaries
        were inpatients at other facilities or did not understand Medicare requirements. For
        example, one provider stated that it has extensive procedures in place to identify
        inpatients in its hospital system, but not from outside the system. In addition, some
        providers did not understand Medicare requirements and billed incorrectly for outpatient
        services when beneficiaries exhausted their Part A benefits after admission.

In addition, Medicare payment system controls did not prevent or detect overpayments for
incorrectly billed services:

   •    CMS acknowledged Medicare contractors were not aware of incoming CWF alerts
        because it did not notify Medicare contractors that it had changed the location of this
        information on the trailer record.

   •    CMS acknowledged that existing CWF edits did not prevent payments for ambulance
        services provided during inpatient stays.

   •    CMS acknowledged that existing CWF edits did not prevent payments for services
        included in the basic prospective payment rate and furnished after beneficiaries’ benefits
        were exhausted.

   •    Medicare contractors acknowledged situations where FISS edits were overridden in error
        or no action was taken on CWF alerts.

RECOMMENDATIONS

We recommend that CMS:

    •   instruct its Medicare contractors to:

                   o recover the $340,073 in identified overpayments, to the extent allowed
                     under the law, for the 61 incorrectly billed services;

                   o work with OIG to resolve the remaining 148,175 services with potential
                     overpayments estimated at approximately $6.1 million and recover
                     overpayments to the extent allowed under the law;

                   o take action to reject claims or recoup overpayments when identified by
                     edits; and



                                                 6
                  o remind hospitals of the importance of adequate controls to prevent
                    incorrect billing for services provided to beneficiaries within 3 days prior
                    to the date of admission for, on the date of admission for, or during
                    (excluding date of discharge) IPPS stays;

   •   communicate with Medicare contractors about changes to the CWF;

   •   modify existing edits to prevent payments for ambulance services provided during
       inpatient stays; and

   •   modify existing edits to prevent payments that are already included in the basic
       prospective payment rate for nonphysician outpatient services furnished to beneficiaries
       after the beneficiaries have exhausted their Part A benefits.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred in part with our first recommendation.
Specifically, it stated that it would attempt to collect $284,538 in overpayments from 42 of the
61 billed services that were not outside of the 4-year reopening period for collections and/or
below the estimated cost of collection. CMS concurred with the remainder of the first
recommendation, the second recommendation, and the fourth recommendation and described its
efforts to implement them. CMS stated that it did not concur with our third recommendation as
it was stated in the report. CMS verified that the existing alert was working correctly, but
acknowledged that the alert listed an incorrect bypass scenario, which deterred the contractor
from acting on the alert. CMS stated that it will update the CWF documentation and instructions
in the alert to correct the bypass scenario. CMS expects to complete this during fiscal year 2012.
CMS’s comments are included in their entirety as Appendix D.

We furnished CMS with the information it requested to initiate recovery action.




                                                7
APPENDIXES
             APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


                                                Period                       Total
                                                Covered                      Overpayments
Report Title and Number 1                       by Review                    Identified               Issue Date


Millions in Improper Payments                   October 1983                 $28.4 million            July 1988
to Hospitals for Nonphysician                   through
Services Under the                              January 1986
Prospective Payment System
(A-01-86-62024)

Improper Payments to Hospitals                  February 1, 1986             $40 million              August 1990
for Nonphysician Outpatient                     through
Services Under the Prospective                  November 30, 1987
Payment System (A-01-90-00516)

Nationwide Review of Improper                   December 1, 1987             $38.5 million            Dec. 1992
Medicare Payments for                           through
Nonphysician Outpatient Services                October 31, 1990
Under the Prospective Payment
System (A-01-91-00511)

Expansion of the Diagnosis                      November 1990                $8.6 million             July 1994
Related Group Payment                           through
Window (A-01-92-00521)                          December 1991

Improper Payments to Hospitals                  January 1992                 $27 million              May 1996
for Nonphysician Outpatient                     through
Services Under the Prospective                  December 1994
Payment System (A-01-95-00508)

Follow-up Audit of Improper                     Calendar Years               $5 million               July 2001
Medicare Payments to Hospitals                  1997 and 1998
for Nonphysician Outpatient
Services Under the Inpatient
Prospective Payment System
(A-01-00-00506)




1
 These reports are available at http://oig.hhs.gov, except for report numbers A-01-86-62024,
A-01-90-00516, and A-01-91-00511, which are not available online because of the age of the reports.
                    APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of paid Medicare claims for calendar years 2008 and 2009 for
nonphysician outpatient services provided within 3 days prior to the date of admission for, on the
date of admission for, or during (excluding date of discharge) inpatient prospective payment
system (IPPS) stays.

SAMPLING FRAME

The sampling frame was an Access database table that contained 148,302 nonphysician line
items of service provided within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays. Those 148,302 line items
totaled $12,015,014 in Medicare Part B payments to providers.

SAMPLE UNIT

The sample unit was a line item of service.

SAMPLE DESIGN

We used a stratified random sample with three strata:

   •   line items of service with payments less than $496,

   •   line items of service with payments of at least $496 and less than $20,000, and

   •   line items of service with payments of $20,000 or greater.

SAMPLE SIZE

We selected 127 line items: 50 each from strata 1 and 2 and all 27 from stratum 3.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OIG/OAS), statistical
sampling software, to generate the random numbers for strata 1 and 2.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating the random
numbers for each of strata 1 and 2, we selected the corresponding frame items. We selected all
27 frame items from stratum 3.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the overpayments.
             APPENDIX C: SAMPLE RESULTS AND ESTIMATES


Stratum   Frame      Value of     Sample      Value of    Number of     Value of
           Size       Frame        Size       Sample     Overpayments Overpayments

  1       144,128    $5,570,791       50       $1,620          15          $868

  2         4,147     5,763,180       50       61,134          34         43,753

  3           27       681,043        27       681,043         12        295,452

Total     148,302   $12,015,014     127      $743,797          61       $340,073




                           Estimates of Overpayments
               (Limits Calculated for a 90-Percent Confidence Level)

                            Point Estimate $6,425,889

                            Lower Limit    $3,813,325

                            Upper Limit    $9,038,453
                    APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


(:J-
 ~S~, IlVIC~...




                        DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                                          Page 1 of 4

                                                                                                Centers for Medicare & Medicaid Services


                                                                                                Administrator
                                                                                                Washington, DC 20201




                  DATE:          MAR 2 9 2012
                  TO:           Daniel R. Levinson
                                Inspector General

                  FROM:         Marilyn Tavenner~..J'II'..JCj,~""" ....._....\-;"
                                Acting Administrator

                  SUBJECT:       Office of Inspector General (OIG) Draft Report: Medicare Continues To Pay
                                 Twice for Nonphysician Outpatient Services Provided Shortly Before or During
                                 an Inpatient Stay (A-OI-I0-00508)


                  Thank you for the opportunity to review and comment on OIG Draft Report entitled, "Medicare
                  Continues To Pay Twice for Nonphysician Outpatient Services Provided Shortly Before or
                  During an Inpatient Stay" (A-O 1-10-00508). The Centers for Medicare & Medicaid Services
                  (CMS) appreciates the time and resources OIG expended in reviewing this issue. OIG's audit
                  focused on paid Medicare Part B outpatient claims for nonphysician services provided--(l)
                  Within 3 days prior to the date of admission to an Inpatient Prospective Payment System (IPPS)
                  hospital; (2) On the date of admission to an IPPS hospital; and (3) During (excluding date of
                  discharge) an IPPS hospital stay, for calendar years 2008 and 2009. The objective was to
                  determine whether Medicare payments were correct for these nonphysician outpatient claims.

                  The OIG concluded that providers and Medicare claims administration contractors were not
                  consistently billing or processing outpatient claims for nonphysician services correctly, therefore,
                  requiring education concerning Medicare's Inpatient, Outpatient overlap policies, as well as, the
                  need for adequate controls for processing Common Working File (CWF) edits. OIG also noted
                  that some Medicare contractors were not aware of CWF alerts and their relationship to existing
                  CWF edits that did not prevent payments for services included in the basic prospective payment
                  rate furnished after beneficiaries' Part A benefits were exhausted.

                  OIG Recommendation 1

                  The OIG recommends that CMS instruct Medicare contractors to--

                  a) Recover the $340,073 in identified overpayments, to the extent allowed under the law, for the
                  61 incorrectly billed services;

                  b) Work with OIG to resolve the remaining 148,175 services with potential overpayments
                  estimated at approximately $6.1 million and recover overpayments to the extent allowed under
                  the law;
                                                                                                      Page 2 of 4
Page 2 - Daniel R. Levinson


c) Take action to reject claims or recoup overpayments when identified by edits; and

d) Remind hospitals of the importance of adequate controls to prevent incorrect billing for
services provided to beneficiaries within 3 days prior to the date of admission for, on the date of
admission for, or during (excluding date of discharge) IPPS stays.

eMS Response

a) The CMS concurs with the recommendation in part. CMS plans to recover the overpayments
identified consistent with the agency's policies and procedures. After a preliminary review of
the data, CMS will attempt to collect $284,538 in overpayments from 42 of the 61 billed
services. CMS non-concurs with collecting the remaining 19 sampled claims totaling $55,535 in
overpayments because the claims are outside of the 4 year reopening period for collections
and/or are below the estimated cost of collection pursuant to 42 CFR 401.621 and 42 CFR
405.376.

b) The CMS concurs with the recommendation. CMS requests that OIG furnish for each
potential overpayment the data necessary (Medicare contractor numbers, provider numbers,
claims information including the paid date, Health Insurance Claim numbers, etc.) to initiate the
recovery action. In addition, CMS requests that Medicare contractor-specific data be written to
separate CD-ROMs, separate hardcopy worksheets, or sent to CMS electronically using the
secure HHS/OIG web portal to better facilitate the transfer of information to the appropriate
contractors. Please have OIG staff contact Cami DiGiacomo at (410) 786-5888 to discuss the
transfer of this information.

c) The CMS concurs with the recommendation. In addition, CMS will ensure that contractors
are aware of their on-going responsibility to reject claims, and process and recover overpayments
when identified by edits. This will be accomplished through contractor education, which is
expected to be completed during fiscal year (FY) 2012. CMS will also send educational
information to hospitals, reminding them of Medicare's policies on inpatient and outpatient
claim overlaps and of their need for adequate controls. This will be accomplished in the form of
a Special Edition Medicare Leaming Network article, which is expected to be completed during
FY 2012.

d) The CMS concurs with the recommendation. CMS continues in its efforts to inform
providers about the payment window policy. In the fall of 20 12, CMS plans to issue an update to
the Medicare Claims Processing Manual, chapter 3, section 40.3, "Outpatient Services Treated as
Inpatient Services." CMS will continue to remind the public as necessary regarding the
importance and applicability of the payment window policy. CMS' efforts to inform providers
regarding the payment window policy include the following:

•   Since the June 25, 2010 enactment of Section 102 of the Preservation of Access to care for
    Medicare Beneficiaries and Pension Relief Act of 2010 (Pub. L 111-192), which pertain to
    Medicare's payment window policy, CMS has undertaken various measures to ensure that
    hospitals and other health care providers are informed and have continuous access to
    information pertaining to the payment window policy, CMS' s efforts have included a variety
    of regulatory and sub-regulatory documents.
                                                                                                   Page 3 of 4
Page 3 - Daniel R. Levinson


•   On August 9,2010, CMS distributed a memorandum to all hospitals, through their fiscal
    intermediaries or Medicare administrative contractors, regarding the payment window policy
    and the requirements of section 102 of Pub. L. 111-192. The memorandum included detailed
    instructions on appropriate billing for compliance with the law.
•   Concurrent with the release of the August 9, 2010 memorandum, CMS posted guidance
    pertaining to the payment window policy on several of its websites for hospitals and other
    health care providers (for an example, go to:
    http://www.cms.gov/AcuteInpatientPPS/08a Three Dav Payment Window.asp#TopOfPage)
•   CMS issued an interim final rule with comment period of the FY 2011 Inpatient Prospective
    Payment System & Long Term Care Hospital Prospective Payment System (IPPS-L TCH
    PPS) final rule (75 FR 50346, August 16,2010). In the interim final rule, CMS discussed the
    payment window policy and adopted changes to the Medicare regulations to comport with
    the requirements of section 102 of Pub. L. 111-192.
•   On October 29,2010 (in CMS Change Request (CR) # 7142, Transmittal # 796), CMS issued
    instructions on the use of a new condition code 51 (definition "51 - Attestation of Unrelated
    Outpatient Non-diagnostic Services"). Starting April 1, 2011, when submitting a claim for
    outpatient services, hospitals may attest to specific outpatient nondiagnostic services as being
    unrelated to the hospital claim (that is, the preadmission nondiagnostic services are clinically
    distinct or independent from the reason for the beneficiary's admission) by adding a
    condition code 51 to the claim for the separately billed outpatient nondiagnostic services.
•   Throughout the fall and through the winter of 2010, CMS discussed the payment window
    policy on its monthly Hospitals Open Door Forum calls, in which providers had opportunities
    to ask questions and have them addressed by the CMS' payment window policy experts.
    Providers may still use these forums to ask questions about the payment window policy.
•   On May 27,2011 (in CMS CR # 7443, Transmittal # 2234), CMS issued updated claims
    processing instructions pertaining to the payment window policy for providers paid under the
    hospital outpatient prospective payment system.
•   In the FY 2012 IPPS-LTCH PPS final rule (76 FR 51705, August 18,2011), CMS responded
    to public comments regarding its discussion of the payment window policy in the FY 2011
    IPPS-LTCH PPS interim final rule.
•   In the calendar year 2012 Physician Fee Schedule final rule (76 FR 73279, November 28,
    2011, CMS discussed the applicability of the payment window policy to physician practices
    that are wholly owned or operated by a hospital, and adopted regulatory changes to comport
    with the requirements of section 102 of Pub. L. 111-192.
•   On December 21,2011 (in CMS CR # 7502, Transmittal # 2373), CMS issued new claims
    processing instructions for physician practices that are wholly owned or operated by a
    hospital. CMS also implemented the new payment modifier PD ("diagnostic or related
    nondiagnostic item or service provided in a wholly owned or operated entity to a patient who
     is admitted as an inpatient within 3 days.") The modifier must be appended to the entity's
    preadmission diagnostic and admission-related nondiagnostic services, reported with
     Contractor Healthcare Common Procedure Coding System/Current Procedural Terminology
     codes, which are subject to the 3-day payment window policy.
                                                                                                   Page 4 of 4
Page 4 - Daniel R. Levinson


OIG Recommendation 2

The OIG recommends that CMS communicate with Medicare contractors about changes to the
CWF.

eMS Response

The CMS concurs with the recommendation and would note that this recommendation has been
completed. CWF has an established notification process to notify all contractors on every
change they make. This is accomplished by developing a release letter identifying a change and
distributing it to the Medicare Shared System Maintainers. Changes also are posted to a website
specifically designed to communicate to Medicare contractors any changes to the CWF.

OIG Recommendation 3

The OIG recommends that CMS modify existing edits to prevent payments for ambulance
services provided during inpatient stays.

eMS Response

The CMS does not concur with the recommendation, as stated. CMS has verified that the
existing alert to prevent payments for ambulance services provided during inpatient stays is
working correctly. At the time the contractor received the alert, it listed an incorrect bypass
scenario which deterred the contractor from acting on the alert. CMS will update the CWF
documentation/instructions in the alert to correct the bypass scenario related to ambulance
services. This is expected to be completed during FY 2012.

OIG Recommendation 4

The OIG recommends that CMS modify existing edits to prevent payments that are already
included in the basic prospective payment rate for nonphysician outpatient services furnished to
beneficiaries after the beneficiaries have exhausted their Part A benefits.

eMS Response

The CMS concurs with the recommendation. CMS is currently examining edits to determine
which have already been implemented and are working properly. CMS will then develop
instructions for new edits in order to prevent overpayments for non physician outpatient services
after the beneficiary has exhausted hislher Part A benefits. A target implementation date for
these edits is January 2013.

We appreciate the effort that went into this report and look forward to continuing to work with
OIG on safeguarding the Medicare program.
